                              U.S. Small Business Administration
                                    Washington, D.C. 20416




     OFFICE OF
INSPECTOR GENERAL


      April 4, 2001

      TO:             John D. Whitmore
                      Acting Administrator



      FROM:           Phyllis K. Fong
                      Inspector General

      SUBJECT:        Advisory Memorandum: Report On The Results of SBA Management
                      Challenge Discussion Groups (#01-04-01)

      Executive Summary

      The Office of Inspector General (OIG) Inspection and Evaluation (I&E) Division held
      discussions in late FY 2000 with selected groups of senior officials from the Small
      Business Administration (SBA) headquarters, regional, and district offices on potential
      management challenges facing SBA and a new Administrator. While we found a strong
      sense of commitment to SBA's mission, we also found that the rapid changes the Agency
      has experienced have produced a number of concerns among some senior officials. The
      issues covered by the discussants included the scope of the Agency's mission as it relates
      to changes in SBA's market, the regional field structure, centralization of functions and
      authority, workforce and program issues, and internal communication. The need for
      greater efforts to improve senior level communications was almost a constant in the
      meetings. In this memorandum OIG presents the issues raised and suggests some actions
      that might be taken to help address them.

      Introduction

      From August through October 2000, the I&E Division of the OIG held discussions with
      four selected groups totaling almost 50 senior officials from SBA headquarters, regional,
      and district offices. Under the leadership of an independent contractor, these discussions
      focused on SBA management challenges. Because of time and resource constraints,
      however, we were not able to verify whether the views expressed represent the opinions
      of a majority of SBA officials. While the information gathered assisted OIG in
      developing the list of management challenges facing the Agency in FY 2001, we found
      other issues that we were not able to develop in a limited timeframe. Nevertheless, these
      additional issues could present management challenges for the Agency and, therefore, be
      important to SBA's new Administrator.
Changes in the U.S. economy, rapidly evolving technologies, and a significant shift in the
public's view of the role of the Federal Government have led to the reengineering of
SBA. In discussions with SBA officials, we found a number of unresolved concerns that
apparently have resulted from these rapid changes. OIG believes it would be useful for
new SBA policy officials to be aware of, and address, some of the issues raised in these
discussions while Agency restructuring is still underway. This memorandum presents
those issues and suggests some actions that might be taken.

Commitment and Concern

OIG recognized a strong commitment to SBA's statutory mission in discussions with both
field and headquarters officials. The major strengths of the Agency cited were an
experienced and committed SBA staff who believe in the mission of the Agency, and the
fact that SBA serves people who walk away satisfied. Discussants generally were
confident that the Agency is flexible and resilient enough to adapt to, and make work,
whatever programs or initiatives are established. At the same time, we found that the
rapid and sometimes dramatic changes ongoing in SBA have produced certain concerns
and tensions, especially in the field. These concerns centered primarily on the
implementation of the Agency's core mission, and on organizational and some program
matters. Internal communication issues seemed to be a significant factor in all of these
areas.

Agency Mission and Market

All four of the groups agreed that SBA needs to reassess the implementation of its
mission through market research and analysis on the needs of small business. Some
discussants suggested that SBA programs need to be less Agency driven and more market
driven. Proposals for the type of analysis needed ranged from an in-depth longitudinal
analysis to selected individual small business market analyses—for example, of the top
ten SBA geographic markets.

The impetus for suggesting the need for market analyses results from perceptions that (1)
the small business market has changed dramatically; (2) officials may not know what
SBA's customers really need; (3) the Agency is stretched too thin with too many
programs and initiatives, some of which may overlap; (4) too many programs and
initiatives are deemed priorities; and (5) there are too many loan products that have
become too complex for lenders.

Because banks are resource partners that help fulfill the Agency's mission, some
discussants also wanted to know whether bank mergers have had a significant impact on
SBA lending and whether a good or bad economy affects the implementation of SBA's
mission. Related to the changing way banks and SBA conduct business, some
discussants indicated a need for greater knowledge of the nature, character, and behavior
of banks. Some banks were reported to be losing sight of the underserved and need
incentives to approach new markets. Discussants remarked that the increasing




                                            2
complexity of SBA's loan processes, fee structure, and reporting is making it difficult to
keep small—especially rural—lenders in the program.

One group suggested that SBA should return to the marketplace as it did in 1993 when
SBA held a series of "town hall" meetings throughout the country to identify the needs of
the small business community. According to a summary report of those meetings to the
President, they gathered suggestions and recommendations on how the Government
could help small businesses grow, profit, and create jobs. In each of seven cities, the
views of more than 2,000 small business owners, 250 small business lenders, and over
500 local SBA staff were solicited for use in structuring Agency programs.

Organization

During the last decade, SBA has undergone substantial organizational change. Agency
field offices and staff have been especially affected. In the mid-1990s, as part of an
overall staff reduction effort, the ten regional offices that once acted as intermediaries
between the district offices and Washington headquarters were significantly downsized.
Further, most loan approval and portfolio management functions that had centered in the
district offices were transferred to resource partners and centralized SBA processing and
servicing centers. This transition has not necessarily been easy and, in both the field and
in headquarters, some believe that adjustments should be made.

Regional Structure. In their roles as intermediaries, the regional offices originally acted
as two-way conduits for information, policy guidance, and instructions between
headquarters and the district offices (68 in 1992). Staff specialists handled liaison
functions for each major SBA program area. Discussants indicated the prior regional
office structure had offered certain advantages by “funneling” and “distilling”
information and policy directives from headquarters to the districts. With the downsizing
of the regional offices, SBA's Office of Field Operations (OFO) became the field's
representative in headquarters. Among other responsibilities, OFO provides policy
guidance and oversight to regional administrators and district directors in implementing
Agency goals and objectives, and in solving problems in specific operational areas. OFO
also serves as a liaison between headquarters and the field.

While OFO was given a great deal of credit for its efforts, discussants in both
headquarters and the field expressed the belief that staffing constraints have precluded
OFO from effectively performing the role accomplished by hundreds of people in the old
regional office structure. One official described OFO's role as “mission impossible.”
There was some feeling that many decisions affecting the districts could be made at the
regional level without involving headquarters.

It was suggested that a more coordinated approach is needed where issues or problems
arising in the field can be channeled to headquarters, and vice versa, through a regional
staff that has a good understanding of local conditions and is therefore better able to
make decisions. Although there was general agreement that OFO should not be
abolished or that regional offices should not be staffed at their former levels, discussants



                                             3
in both the field and headquarters indicated that a larger regional presence and decision-
making authority would facilitate operations. It was also suggested that it would help
ensure continuity if the head of OFO were a career appointee and/or if OFO reported
directly to a career appointee.

In fact, it was emphasized in several groups that for greater SBA mission continuity and
to strengthen relations between headquarters and the field, it would be constructive if
additional top Agency officials were career professionals. It was noted that, although it is
desirable to bring in people with new ideas, the high turnover that SBA has experienced
adds complexity to Agency operations and results in a loss of the institutional knowledge
that is critical to effectively implementing SBA's mission.

Centralization of Functions. All of the discussion groups addressed the centralization of
certain Agency functions, including the processing and servicing of business loans.
Although a variety of views were expressed, field officials had more concerns about
SBA's centralization of functions than did headquarters officials.

On the one hand, it was noted that the centralization of certain Agency processes helps
provide limited district office staff with the opportunity to accomplish other tasks, and
that large centralized servicing centers may make the jobs of lenders easier. On the other
hand, there were suggestions that centralization has had some negative consequences for
relationships between district offices and lenders. For example, it was suggested that
some community lenders do not like to deal with people they do not know, such as those
at the processing and servicing centers. Discussants in one group also noted that, with
centralization, SBA has lost much of its ability to exercise needed oversight. Other field
officials expressed concern that, while decisions are best made at the customer level,
centralization has resulted in the district offices being increasingly “out of the loop” on
decisions affecting their small business customers or potential customers.

Centralization of Authority. Related to the implementation of SBA's mission, we were
told that SBA seems to have recently decentralized responsibility while centralizing
authority and resources in Agency headquarters and the processing centers. It was
remarked that this situation resulted in the field, despite its significant local knowledge,
having little input into making policies or implementing programs. The case was made
that pushing decision-making down to the level closest to the customer would improve
the delivery of SBA programs and services, and the efficiency of their operations. Even
in the headquarters discussion group, it was noted that few of SBA's Washington
managers have field experience and therefore have difficulty recognizing the impact their
policies have on the Agency’s small business customers. In both the field and
headquarters discussion groups, some discussants viewed this as detrimental to Agency
operations and suggested that a resurgence of the field system was needed. At least some
of the concerns expressed by field staff about their input into headquarters decisions
appeared to center on a perception that SBA headquarters determines loan volume goals
with little input from the field and that a new goal development system with greater
consultation with the field is needed.




                                             4
Workforce

According to SBA's FY 2001-2006 Strategic Plan, modifications are required in Agency
employee skills and deployment because of changes in small business practices, products
and needs. While discussants acknowledged that Agency restructuring efforts have
begun, they also indicated that their implementation remains a source of anxiety.

The field was especially concerned about (1) an aging workforce with the potential for a
loss of institutional memory as people retire, (2) budget cuts that have produced
insufficient succession planning at the management and operational levels, (3)
inconsistent personnel policies, (4) confusion over which practices are permitted during a
hiring freeze, and (5) a lowering of morale. At various points it was noted that, although
SBA has made great efforts in the area of succession planning for district directors and
Senior Executive Service candidates, and in training for mid-level managers, SBA needs
to (1) address the training needs of staff at lower grade levels, (2) ensure that prior policy
and program actions are well documented for new employees, and (3) hire new
employees before experienced people leave. It was also suggested that moving personnel
staff back to the regions could expedite the hiring process and avoid confusion.

Several groups emphasized the need for increased technology use and adequate computer
equipment and training to make operations more efficient and competitive, thus
mitigating the need to hire additional staff.

Programs

Program Marketing. A key element of SBA's reengineering process is retraining Agency
staff to successfully market all Agency products and services to small businesses. Some
of the field concerns related to SBA's capacity to market programs effectively include (1)
the need for the Agency to look and act more like a private business while lacking the
advertising or resources needed for creating extensive relationships and outreach, (2) a
lack of knowledge about rejected loan applicants who may need the Agency's other
services, and (3) the fear that the numerous Memoranda of Understanding signed
between SBA and various groups in the last few years may have created false
expectations that will not be fulfilled.

Entrepreneurial Development. We were advised that SBA may be meeting the financial
needs of small businesses, but not necessarily their technical assistance needs. A plea
was made for a more "holistic" view. Both field and headquarters staff indicated that
SBA should track SBA borrowers to determine their needs and provide help if necessary.
One suggestion was to try an incremental pilot project that would put a small business on
a continuum of SBA assistance for the different stages in its life cycle. SBA could start
the pilot, for example, with one program in a few districts, fine-tuning and adjusting it as
it develops.

8(a) Business Development and Government Contracting. As with technical assistance,
concern was expressed that the Section 8(a) Business Development program plays a



                                              5
secondary role to the Agency's loan programs. It was also noted that to increase small
business contracting opportunities, there needs to be greater cooperation and coordination
among the Office of Government Contracting, and the Section 8(a) Business
Development, Small Disadvantaged Business (SDB), and HUBZone programs. To avoid
product and service overlap, it was further suggested that communication should be
improved between headquarters officials who manage those different programs.

Regarding the SDB program specifically, one discussion group addressed the sometimes
high certification fees (reportedly $500 to $5,000) that small businesses have been
assessed even though the certified SDB might never obtain a contract. One suggestion
was to charge a certification fee for small disadvantaged businesses only if the business
obtains a contract. It was also proposed that field offices play a role in the certification
process to ensure appropriate certifications while avoiding delays in the certification of
legitimate businesses.

Business Loans. As indicated above, in recent years much of the district office
responsibility for, and authority over, loan programs has been transferred to resource
partners and centralized processing and servicing centers. This distancing has apparently
produced a number of additional concerns regarding the business loan program, including
(1) bank refinancings that some suggest benefit the lender and reduce the availability of
Agency funds, (2) a perception that asset sales do not support SBA's mission of assisting
a small business until it is capable of repayment, (3) a fee structure that is too high for
loan applicants, and (4) a fee and reporting structure that is too complex for smaller
banks.

Internal Communication

A common thread throughout the discussions was a belief that communication between
headquarters and the field was not as strong as it could or should be. While this was
especially clear when discussants spoke of the need for a more significant regional
structure for channeling and filtering information, it appeared to permeate discussions of
all issues. Both field and headquarters staff raised concerns that headquarters may not
understand the needs of the field. In addition, fears were expressed that communication
gaps result in confusion and lower morale in the field. Finally, field participants wanted
headquarters staff to visit the districts more often to assess their needs.

Several field groups stated they sometimes first learned of important information through
"second hand" sources such as the National Association of Government Guaranteed
Lenders, albeit in an untimely manner.               One field discussant explained that
communication failures had caused him to convey incorrect messages to his staff,
damaging his credibility. A headquarters official noted that if SBA does not adequately
communicate policy changes to the field and explain how they will benefit SBA, the field
will resist the changes. It was also suggested that improved communication between
headquarters and district offices could help the district offices apply rules more
uniformly, and have the added benefit of letting district offices know where they have
some flexibility in the application of certain rules.



                                             6
OIG Comments and Suggestions for Action

We learned from the discussion groups that there are concerns about the effects of SBA's
recent experiences with downsizing and reengineering. As indicated above, most of the
issues related in some way to internal communications and the exchange of information.
Consequently, rather than focussing on the specific issues raised, the OIG suggestions for
alleviating some of the concerns we found center on increasing the flow of critical
information and on improving communication.

Small Business Market and Lender Analysis: The discussants emphasized that not
enough is known about current small business needs and the nature of today's small
business banking. The last major Agency initiatives to address these issues were SBA's
town hall meetings that were conducted in 1993 and the White House Conference on
Small Business held in 1995.

The SBA Office of Advocacy held a conference in June 2000 on "The Changing Banking
Structure and Its Impact on Small Business: A Conference Report." Office of Advocacy
officials joined leading researchers from the Federal Reserve Board and other bank
regulatory agencies, as well as several academics and banking representatives, in
exploring the issues and data. Although the report has been published and is available on
SBA's web site, the conference raised additional questions and produced a number of
proposals for future research work.

The only national survey that asks small businesses about their credit needs is the
National Survey of Small Business Finances, that was last published in 1993. The next
survey will be published in 2001 but analysis of the raw data will take longer. The Office
of Advocacy plans such an analysis when the data are available.

Meanwhile, to provide more immediate information on small business needs and current
small business banking practices for SBA staff, one or more of the following might be
conducted—

•   A series of town hall meetings with representatives from small businesses, lenders,
    and SBA staff

•   A White House Conference on Small Business

•   Targeted surveys or research studies of specific markets

•   A survey of SBA field staff regarding their understanding of current small business
    needs and commercial lending to small business

•   A dialogue between leading researchers in the banking area and SBA field and
    headquarters officials at one of the periodic management conferences




                                            7
Improving Internal Communication: The common thread throughout the discussions was
a belief that communication between headquarters and the field was not as strong as it
could or should be. Poor communication can lower employee morale and reduce
commitment due to uncertainty and mistrust. Given the nature of the issues raised by the
discussants, it may be advantageous to review current procedures for communicating
with the field and seek out additional opportunities for dialogue between the field and
headquarters. These might include—

•   Increasing the amount of time spent in open dialogue and work group sessions at the
    periodic management conferences

•   Establishing discussion groups where employees of all levels meet to solve problems
    and brainstorm issues

•   Surveying field and headquarters staff about their concerns

•   Using OFO's District Technical Advisory Board as a top level policy advisory board

Regional Structure Review: With over five years of experience in operating with a
reduced regional staff, it would be useful for SBA to review the impact the downsizing
may have had on the efficiency and effectiveness of Agency operations. To gather
information on this issue, some of the methods suggested to improve the Agency's
internal communication process might be used.

Program and Other Issues: Some concerns about SBA programs and other issues
surfaced in the course of our discussions. While the sessions were too short to provide
details on these items, some of the ideas suggested for improving the internal
communications process might also be used to explore these and other issues. Items
discussed in our meetings included—

•   Skills training, and leadership continuity and succession

•   Coordination, mix, and emphasis among the various SBA programs

•   Program effectiveness and efficiency

•   Opportunities for identifying possible program overlap and duplication

•   Simplification of SBA application procedures and reporting

•   Division of resources and authority between the field and headquarters

•   SBA personnel policies




                                             8
Contributors to This Report

Mary Jeanne R. Martz, Acting Assistant Inspector General, Inspection and Evaluation
     Division
Phillip E. Neel, Senior Inspector
Mark P. Taylor, Inspector
Jill A. Lennox, Inspector




                                          9
